Case: 20-30377

Document: 00515807759

Page: 1

Date Filed: 04/05/2021

QEmteii States Court of Appeals
for tfje Jftftf) Circuit
United States Court of Appeals
Fifth Circuit

FILED

No. 20-30377

April 5, 2021
Lyle W. Cayce
Clerk

Floyd Flugence

Petitioner—Appellant,
versus
Darrel Vannoy, Warden, Louisiana State Penitentiary,
Respondent—Appellee.
Appeal from the United States District Court
for the Western District of Louisiana
USDC No. 6:19-CV-839
ORDER:
Floyd Flugence was convicted in state court for second-degree
murder and sentenced to life imprisonment in 1998. His conviction was
affirmed on appeal. Flugence then filed for post-conviction relief. After
multiple petitions over fifteen years, the state appellate court ordered the trial
court to rule on Flugence’s pending post-conviction application. After an
evidentiary hearing, the trial court denied post-conviction relief in October
2017. Flugence then sought review in the state appellate court, which was
denied on procedural grounds. The Louisiana Supreme Court also denied
review.

i

Case: 20-30377

Document: 00515807759

Page: 2

Date Filed: 04/05/2021

No. 20-30377
\

In June 2019, Flugence filed a petition for a writ of habeas corpus in
federal district court under 28 U.S.C. § 2254, asserting eight claims for relief.
Adopting a magistrate judge’s report and recommendations in full, the
district court denied the petition. In particular, the district court concluded
that Flugence was not entitled to relief for his first two claims and that his
remaining claims were procedurally barred.
Flugence now moves for a certificate of appealability (“COA”) to
appeal the dismissal of his 28 U.S.C. § 2254 petition, asserting that the
district court improperly dismissed his eight claims.
To obtain a COA, a movant must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see Slack v.
McDaniel, 529 U.S. 473, 484 (2000). Where the district court has denied a
request for habeas relief on procedural grounds, the movant must show that
jurists of reason could find it debatable both whether “the petition states a
valid claim of the denial of a constitutional right” and whether “the district
court was correct in its procedural ruling. ” Slack, 529 U.S. at 484. Flugence
has not met these standards.
Accordingly, IT IS ORDERED that the motion for a COA is
DENIED.
/s / Catharina Haynes
Catharina Haynes
United States Circuit Judge

2

i

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
LAFAYETTE DIVISION
FLOYD FLUGENCE #401997

CASE NO. 6:19-CV-0839 SEC P

VERSUS

JUDGE MICHAEL J. JUNEAU

DARRYL VANNOY

MAGISTRATE JUDGE WHITEHURST

JUDGMENT
For the reasons stated in the Report and Recommendation of the Magistrate
Judge previously filed herein, and after an independent review of the record,
determining that the findings are correct under the applicable law, and considering
the objections to the Report and Recommendation in the record;
IT IS ORDERED, ADJUDGED AND DECREED that the instant habeas
corpus petition be DENIED and DISMISSED WITH PREJUDICE.
THUS DONE AND SIGNED in Lafayette, Louisiana, on this 27th day of
May, 2020.

MICHAEL J. JUNEAU
UNITED STATES DISTRICT JUDGE

-UNITEDSTATESDISTRier-GOURTWESTERN DISTRICT OF LOUISIANA
LAFAYETTE DIVISION
FLOYD FLUGENCE #401997

CASE NO. 6:19-CV-0839 SEC P

VERSUS

JUDGE MICHAEL J. JUNEAU

DARRYL VANNOY

MAGISTRATE JUDGE WHITEHURST

REPORT AND RECOMMENDATION
Pro se petitioner Floyd Flugence, a prisoner in the custody of Louisiana’s
Department of Corrections, filed the instant petition for writ of habeas corpus,
pursuant to 28 U.S.C. §2254, on June 27, 2019. Rec. Doc. 1. Petitioner attacks his
1998 conviction for second degree murder and the life sentence imposed thereon by
the Fifteenth Judicial District Court, Lafayette Parish. This matter has been referred
to the undersigned for review, report, and recommendation in accordance with the
provisions of 28 U.S.C. §636 and the standing orders of the Court.
I.

FACTUAL BACKGROUND
The facts of this case, as laid out by the Third Circuit Court of Appeal, are as

follows:
On February 11, 1997, Defendant, an off-duty Carencro Reserve
Police Officer, was watching the Mardi parades in Lafayette,
Louisiana at Club Jamaica, where he was working as a security
guard. A fight ensued. At which time Defendant and Brian Benoit,
the victim, came out of the bar to stop the disturbance.

--------- During-tb.e-smiggle.-Benoitj:an_into_Defendant. who pushed him in
return. Benoit then punched Defendant, knocking him to the ground.
Defendant got up and charged Benoit only to be punched and
knocked to the ground again. He then walked to his vehicle, got a
handgun, returned to the scene, and shot Benoit in the chest killing
him.
State v. Flugence, 98-1882 (La. App. 3 Cir. 6/2/1999); Rec. Doc. 11-3, pp. 44-53.
II.

STATEMENT OF THE CASE
On May 21, 1997, Flugence was charged by Grand Jury Indictment with

second degree murder, a violation of La. R.S. 14:30.1. Doc. 1-2, p. 3. Following a
jury trial in the Fifteenth Judicial District Court, Lafayette Parish, petitioner was
convicted August 28, 1998, of second-degree murder, and was later sentenced to a
term of life imprisonment. Id. at p. 4.
On January 5, 1999, Petitioner filed a direct appeal in the Third Circuit Court
of Appeals, raising the following issues: (1) insufficient evidence to sustain a
conviction for second degree murder; (2) trial court committed manifest error in
denying the defense its constitutional right to present evidence and testimony in its
defense; and (3) trial court committed manifest error in refusing to allow the jury,
during its deliberations, and upon its request, to review the slow motion videotape
of the incident giving rise to this matter. Rec. Doc. 1-3, pp. 3-13. The Third Circuit
denied his appeal on June 2, 1999. State v. Flugence, 98-1882 (La. App. 3 Cir.
6/2/99), 744 So.2d 235; see also Rec. Doc. 1-3, pp. 15-24. On an unknown date, he

2

.soug.htJviitsin-tlieXDiiisiana.Supreme_Court,_whichdenied.same_on April 27^2001.
State exrel. Flugence v. State, 2000-KH-1574, (La. 04/27/01), 791 So. 2d 109.
An Application for Post-Conviction Relief was filed in the trial court on
December 12, 2001, raising three issues: (1) petitioner’s constitutional rights were
violated when the Louisiana district court unconstitutionally selected the foreperson
from the Grand Jury Venire before the remaining members of the Grand Jury were
chosen; (2) petitioner’s indictment failed to charge an offense where it omitted the
elements of the crime; and (3) petitioner received ineffective assistance of counsel
from trial counsel when he failed to file proper pre-trial motions to quash a defective
indictment.

Rec. Doc. 1-3, pp. 48-73. According to a timeline set forth in the

Motion to Continue and Refix Hearing, filed by the State in the trial court in 2003,
and attached as an exhibit to the instant petition, the trial court denied the application
as untimely on December 18, 2001. See Rec. Doc. 1-3, p. 76. Petitioner sought
writs in the Third Circuit Court of Appeal. On February 22, 2002, the Third Circuit
granted defendant’s writ, finding that the trial court erred in denying the application
as untimely, and ordered the trial court to consider and mle upon the merits of the
claims contained in the application without undue delay. Id.; see also Rec. Doc. 13, p. 126. A hearing date was set by the trial court for August 5, 2002, at which time
the defendant moved for a continuance and requested that an attorney be appointed
r

to represent him. The Court granted the continuance, ordered that an attorney be
3

appointed,_and.ordere.d_that.another_motion_for_postrConviction.relief_be_prepared
after speaking with counsel. Rec. Doc. 1-3, p. 76.
After a fifteen (15) year delay, during which time the petitioner filed
numerous motions and complaints, the Third Circuit, on February 10, 2017, ordered
that the trial court rule on petitioner’s application by March 13, 2017. Rec. Doc. 13, p. 127. An evidentiary hearing was held before the Fifteenth Judicial District
Court on petitioner’s application for post-conviction relief on October 24, 2017, at
which time the application was denied. See Rec. Doc. 1-3, pp. 89-123. On or about
January 26, 2018, petitioner filed an application for writ of review in the Third
Circuit Court of Appeal raising the claims brought in the original post-conviction as
well as two new claims: (1) ineffective assistance of post-conviction trial counsel;
and (2) due process violation relative to the 17-year delay on his post-conviction
application (doc. 11-2, p. 23-39), which was denied on May 8, 2018, as deficient, as
it failed to comply with La. Code of Crim. P. art. 912.1(C), Uniform Rules- Courts
of Appeal, Rule 4-5, Third Circuit Internal Rule 16, and City of Baton Rouge v.
Plain, 433 So.2d 710 (La.), cert denied, 464 U.S. 896 (1983). Rec. Doc. 1-3, p. 125.
On June 11, 2018, petitioner sought writs in the Louisiana Supreme Court. Rec.
Doc. 1-3, pp. 29-46. The Louisiana Supreme Court denied petitioner’s application
for supervisory and/or remedial writs on April 22, 2019. State ex rel. Flugence, v.
State, 791 So.2d 109 (La. 2001).
4

--------Petitioner filed the instant petition on June 27, 2019, raising the following
claims: (1) insufficient evidence to convict; (2) trial court committed manifest error
in denying defense its constitutional right to present evidence and testimony in its
defense; (3) trial court committed manifest error insofar as it refused to allow the
jury, during deliberations, and upon its request, to review slow motion videotape of
the incident giving rise to the proceedings; (4) petitioner’s constitutional rights were
violated when the Louisiana district court unconstitutionally selected the foreperson
from the Grand Jury venire before the remaining members of the grand jury were
chosen by lot; (5) ineffective assistance of post-conviction counsel during his initial
review; (6) due process violation relative to the 17-year delay on his post-conviction
application; (7) indictment failed to charge an offense where it omitted the elements
of the crime; and (8) ineffective assistance of trial counsel in failing to file proper
pre-trial motions and quash defective indictment. Rec. Doc. 1.
m.

PROCEDURE

A. Statute of Limitations
In 1996, as part of the Antiterrorism and Effective Death Penalty Act
("AEDPA"), Congress enacted 28 U.S.C. § 2244(d), which provides a one-year
statute of limitations for filing applications for writs of habeas corpus by persons in
custody pursuant to the judgment of a state court. This limitations period generally
runs from “the date on which the judgment became final by the conclusion of direct
5

xemew_or_the_expmtiO-n_o£_t]ie_time_for_seekiiig_such_re_view........ ” 28 TI.S C, §
2244(d)(1)(A). Federal courts may raise the one-year limitations period sua sponte.
See Kiser v. Johnson, 163 F.3d 326 (5th Cir. 1999).
The statutory tolling provision of 28 U.S.C. § 2244(d)(2) provides that the
time during which a properly filed application for post-conviction relief was pending
in state court is not counted toward the limitations period.

See 28 U.S.C. §

2244(d)(2); Ott v. Johnson, 192 F.3d 510, 512 (5th Cir. 1999); Fields v. Johnson,
159 F.3d 914, 916 (5th Cir. 1998). However, any lapse of time before the proper
filing of an application for post-conviction relief in state court is counted against the
one-year limitation period. See Villegas v. Johnson, 184 F.3d 467, 472 (5th Cir.
1999) (citing Flanagan v. Johnson, 154 F.3d 196, 199 (5th Cir. 1998)).
Petitioner’s conviction became final for AEDPA purposes on July 26, 2001,
upon the expiration of the 90-day period for applying for certiorari with the United
I

States Supreme Court. Under 28 U.S.C. § 2244(d)(1) petitioner had one year, or
until July 26, 2002, within which to file his federal habeas petition.
Petitioner’s first application for post-conviction relief was filed on December
12, 2001, after 139 days accrued against §2244’s one-year limit. After moving
through the Louisiana state courts, his writ application was finally denied by the
Louisiana Supreme Court on April 22, 2019. His petition was filed in this court on

6

•J-ime-27?-20-l-9,-aft&r-a4otal-of-206-days-had-accnied-against-§2244is-one^year-limit
Thus, this matter is timely.
B. Exhaustion and Technical Procedural Default
The States argues, and this Court agrees, that federal claims four, five, six,
seven and eight are procedurally defaulted. “A fundamental prerequisite to federal
habeas relief under Section 2254 is the exhaustion of all claims in state court prior
to requesting federal collateral relief.” Preiser v. Rodriguez, 441 U.S. 475, 500
(1973); Whitehead v. Johnson, 157 F. 3d 384, 387 (5th Cir. 1998) (citing Rose v.
Lundy, 455 U.S. 509, 519-20 (1982)); Nobles, 127 F. 3d at 419. “A federal habeas
petition should be dismissed if state remedies have not been exhausted as to all of
the federal court claims.”

Whitehead, 157 F. 3d at 387 (citing 28 U.S.C. §

2254(b)(1)(A); Rose, 455 U.S. at 519-20). Claim 4-8 were all brought before the
Third Circuit Court of Appeal, which, in denying Petitioner’s application for writs,
held that the application failed to comply with Louisiana Code of Criminal
Procedure 912.1(C), Uniform Rules- Courts of Appeal, Rule 4-5, Third Circuit
Internal Rule 16, and City of Baton Rouge v. Plain, 433 So.2d 710 (La.), cert denied,
464 U.S. 896 (1983). Petitioner sought writs in the Louisiana Supreme Court, which
denied Petitioner’s application without comment.1

1 This Court, in its Memorandum Order dated August 20, 2019, originally stated that claims five and six were raised
for the first time in the Louisiana Supreme Court. Doc. 5. However, after having reviewed petitioner’s application to
the Third Circuit, which it did not have access to prior to the State filing its response on October 6, 2019, the Court
notes that these claims were, in fact, raised in the Third Circuit, where they were denied on procedural grounds.

7

XheXouisiana2Supreme-CQurt.has-superwisory-jurisdictiQn-over4he-Gourts-Qfappeal. LSA Const. Art. 5, §5. In this instance, however, the intermediate appellate
court never had an opportunity to review petitioner's claims 4-8 because they were
never presented in a procedurally proper manner. Therefore, the merits of petitioner's
claims were not properly before the Louisiana Supreme Court. Petitioner's claims
therefore remain unexhausted. See Thomas v. Cain, 2007 U.S. Dist. LEXIS 75804,
(W.D. La. Sept. 7, 2007) (citing O’Sullivan v. Boerckel, 526 U.S. 838 (1999); Wilder
v. Cockrell, 274 F.3d 255 (5th Cir. 2001)).
A petitioner has "technically” exhausted his federal claims if he fails to
properly and timely present them to the Louisiana courts and is thereafter timebarred from seeking relief in the Louisiana courts. Magouirk v. Phillips, 144 F.3d
348 (5th Cir. 1998) citing Coleman v. Thompson, 501 U.S. 722 (1986) and Sones v.
Hargett, 61 F.3d 410, 416 (5th Cir.1995). In such a case, however, there is no
difference between non-exhaustion and procedural default. Magouirk, 144 F.3d at
358. Accordingly, when a petitioner fails to exhaust state court remedies because
he has allowed his federal claims to lapse, those claims are "technically"
procedurally defaulted. Id.
Since petitioner failed to properly present federal habeas claims 4-8 to the
Louisiana Supreme Court, those claims remain unexhausted, and, for purposes of
federal habeas corpus review, because petitioner cannot now meet the exhaustion
8

-requirement■_those_claims are "technically" procedurallv defaulted. See Magouirk
and Sones supra. Indeed, under factually similar circumstances, this Court has
found claims which were never properly presented to the Louisiana Third Circuit
Court of Appeal were "technically" procedurally defaulted. See Thomas v. Cain,
supra.
C. Traditional Procedural Default
The Third Circuit did not rule on the merits of petitioner's post-conviction
claims 4-8, because petitioner failed to comply with Louisiana Code Criminal
Procedure article 912.1(C), Uniform Rules

Courts of Appeal, Rule 4-5.

Accordingly, claims 4-8 are also traditionally procedurally defaulted. This is so
because the last reasoned decision on these claims, that of the Louisiana Third
Circuit Court of Appeal, clearly and expressly relied on state procedural rules as the
basis for the court's Judgment. See Harris and Sones, infra.
The "traditional" procedural default doctrine applies to bar federal habeas
corpus review when a state court declines to address a prisoner's federal claims
because the prisoner failed to follow a state procedural rule. Coleman v. Thompson,
501 U.S. 722, 750 (1991). Federal courts typically refuse to reach the merits of
questions of federal law if the state courts have expressly relied on an "adequate and
independent" state procedural ground in refusing to review the claim. "An 'adequate'
rule is one that state courts strictly or regularly follow, and one that is applied
9

£xeiihandedly_tO-thej/asLmajQrity^of_similar_claims.” (
902 (5th Cir.1997), cert, denied, 523 U.S. 1125 (1998), citing Amos v. Scott, 61 F
.3d 333, 339 (5th Cir. 1995). A state procedural rule enjoys a presumption of
adequacy when the state court expressly relies on it in deciding not to review a claim
for collateral relief. Id., citing Lott v. Hargett, 80 F.3d 161, 165 (5th Cir.1996). A
procedural rule is "independent" when the last state court rendering a judgment in
the case "clearly and expressly" indicates that its judgment rests on the procedural
ground. Amos, 61 F.3d at 338.
The procedural rules identified in this case satisfy both requirements.
Petitioner makes no showing that Louisiana Code of Criminal Procedure article
912.1(C), Uniform Rules

Courts of Appeal, Rule 4-5 or Third Circuit Internal

Rule 16 are not evenhandedly applied. Thus, these state court procedural rules are
presumed "adequate." Moreover, while most appellate court decisions declining
review of writ applications are unpublished, review of published Louisiana
jurisprudence establishes that the Louisiana courts of appeal regularly invoke the
requirements of Rule 4 and article 912.1 to bar review of non-conforming writ
applications. See Thomas, supra. For this reason, this Court has repeatedly found
that Rule 4 of the Uniform Rules of the Courts of Appeal and article 912.1 is
"adequate" for purposes of application of the "traditional" procedural default
doctrine. Id.
10

Moreover, Jhe.rules_citedbyJhe Third Circuit are "independent" because the
last reasoned judgment on petitioner's claims four, seven and eight, that of the Third
Circuit Court of Appeals, expressly relied solely on state procedural rules (Rule 45, article 912.1(C) and Internal Rule 16 when it declined review of the merits of
petitioner's claims. The Louisiana Supreme Court did not specify reasons for its
denial of review; it must therefore be presumed that the Supreme Court, like the
Third Circuit, did not reach the merits of the claims. Mst v. Nunnemaker, 501 U.S.
797, 803 (1991).
i.

Cause and Prejudice
A federal habeas petitioner may be excepted from the procedural default mle

only if he can show "cause" for his default and "prejudice attributed thereto,” or
demonstrate that the federal court's failure to review the defaulted claims will result
in a "fundamental miscarriage of justice." Glover, 128 F.3d at 902 (citing Coleman,
501 U.S. at 731-32).
To establish cause for a procedural default, a petitioner must demonstrate that
some objective factor external to the defense impeded his efforts to comply with the
state's procedural rules. Murray v. Carrier, 477 U.S. 478, 488 (1986). The mere
fact that petitioner or his counsel failed to recognize the factual or legal basis for a
claim, or failed to raise the claim despite recognizing it, does not constitute cause
for a procedural default. Id. at 486.
11

Jn-this.case,_pe.tilionerJiasjiot.offered.any_causei!orJhe_default_which_would
excuse the procedural bar imposed by the Louisiana Supreme Court. He only argues
that the Third Circuit erred in dismissing his petition and should have allowed him
to cure the deficiencies. Rec. Doc. 19, p. 2. The record also does not reflect any
action or inaction on the part of the State which prevented him from doing so.
"The failure to show ‘cause' is fatal to the invocation of the 'cause and
prejudice' exception, without regard to whether 'prejudice' is shown." Hogue, 131
F.3d 466, 497 (5th Cir. 1997) (citing Engle, 456 U.S. at 134 n.43). Having failed to
show an objective cause for his default, the court need not determine whether
prejudice existed, and petitioner has not alleged any actual prejudice. Ratcliff v.
Estelle, 597 F.2d 474 (5th Cir. 1979) (citing Lumpkin v. Ricketts, 551 F.2d 680, 681 82 (5th Cir. 1977)).
Petitioner’s claims 4-8 are therefore procedurally barred from review by this
federal habeas corpus court. See Trest v. Whitley, 94 F.3d 1005, 1008 (5th Cir.
1996) (habeas review precluded when petitioner neglected to allege actual prejudice
and cause for failure to comply with state procedural rule concerning time restriction
on filing for state post-conviction relief), vacated on other grounds, 522 U.S. 87
(1998).

12

••

EundamentalJVBscamage.of. Justice.
Petitioner may avoid this procedural bar only if a fundamental miscarriage of

justice will occur if the merits of his claims are not reviewed. Hogue, 131 F.3d at
497 (citing Sawyer v. Whitley, 505 U.S. 333, 339 (1992)).

To establish a

fundamental miscarriage of justice, petitioner must provide this court with evidence
that would support a "colorable showing of factual innocence." Kuhlmann v. Wilson,
477 U.S. 436, 454 (1986); accord Murray, 477 U.S. at 496; Glover, 128 F.3d at 902.
To satisfy the factual innocence standard, petitioner must establish a fair
probability that, considering all of the evidence now available, the trier of fact would
have entertained a reasonable doubt as to the defendant's guilt. Campos v. Johnson,
958 F.Supp. 1180, 1195 (W.D. Tex.1997) (footnote omitted); Nobles, 127 F.3d at
423 n.33 (actual innocence factor requires a showing by clear and convincing
evidence that "but for constitutional error, no reasonable factfinder would have
found the applicant guilty of the underlying offense."). When the petitioner has not
adequately asserted his actual innocence, his procedural default cannot be excused
under the "fundamental miscarriage of justice" exception. Glover, 128 F.3d at 903.
Petitioner does not present any claim of actual innocence and the record
contains nothing to suggest or establish his actual innocence of the underlying
conviction. He presents no evidence or argument of the kind of actual innocence
that would excuse his procedural default. He, therefore, has failed to overcome the
13

-procedural banto, Jhds_claims_.__ Accordingly, federal claims four, five, six, seven, and
eight are procedurally barred and should be dismissed with prejudice.
IV.

MERITS

A. Standard of Review - 28 U.S.C. § 2254
The Antiterrorism and Effective Death Penalty Act (“AEDPA”) of 1996, 28
U.S.C. § 2254, governs habeas corpus relief. The AEDPA limits how a federal court
may consider habeas claims. After the state courts have “adjudicated the merits” of
an inmate’s complaints, federal review “is limited to the record that was before the
state court[.]” Cullen v. Pinholster, 131 S. Ct. 1388, 1398 (2011). An inmate must
show that the adjudication of the claim in state court:
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the
State court proceeding.
28 U.S.C. § 2254(d)(l)-(2).
A decision is “contrary to” clearly established Federal law “if the state court
arrives at a conclusion opposite to that reached by . . . [the Supreme Court] on a
question of law or if the state court decides a case differently than [the Supreme
Court] has on a set of materially indistinguishable facts.” Dowthitt v. Johnson, 230
F.3d 733, 740-41 (5th Cir. 2000) (quoting Williams v. Taylor, 529 U.S. 362 (2000)).
14

“The ‘contrary to’ requirement refers to holdings, as opposed to the dicta, of... [the
Supreme Court’s] decisions as of the time of the relevant state court decision.” Id.
at 740. Under the “unreasonable application” clause, a federal habeas court may
grant the writ only if the state court “identifies the correct governing legal principle
from... [the Supreme Court’s] decisions but unreasonably applies the principle to the
facts of the prisoner’s case.” Id. at 741.
Section 2254(d)(2) speaks to factual determinations made by the state courts.
Federal courts presume such determinations to be correct; however, a petitioner can
rebut this presumption by clear and convincing evidence. 28 U.S.C. § 2254(e)(1).
i. Claim 1 - Insufficient Evidence
Petitioner argues that the evidence at trial was insufficient to establish that he
was not acting in self-defense, or the defense of others, when he “attempted to
subdue” the victim with his service weapon. Rec. Doc. 1-2, p. 13. The Third Circuit,
in affirming petitioner’s conviction and sentence, found that viewing the evidence
in a light most favorable to the prosecution, the jury could have reasonably found
that Defendant was the initial aggressor and rejected his assertion of self-defense.
State of Louisiana v. Flugence, 12-466, (La. App. 3 Cir.), 129 So.3d 69.
Jackson v. Virginia, 443 U.S. 307 (1979), provides the appropriate United
States Supreme Court standard for consideration of a claim of insufficient evidence.
Under Jackson, a federal habeas court addressing an insufficiency of the evidence
15

claim must determine, after viewing the evidence inthe light most favorable to the
prosecution, whether a rational trier of fact could have found that the essential
elements of the crime were proven beyond a reasonable doubt. Id. at 319; Williams
v. Cain, 408 F. App'x 817, 821 (5th Cir. 2011); Perez v. Cain, 529 F.3d 588, 594
(5th Cir. 2008). Thus, to determine whether the commission of a crime is adequately
supported by the record, the Court must review the substantive elements of the crime
as defined by state law. Perez, 529 F.3d at 594 (citing Jackson, 443 U. S. at 324 n.
16).
The Court's consideration of the sufficiency of the evidence extends only to
what was presented at trial. See McDaniel v. Brown, 558 U.S. 120, 131 (2010)
(recognizing that a reviewing court must consider the trial evidence as a whole under
Jackson); Johnson v. Cain, 347 F. App'x 89, 91 (5th Cir. 2009) (Jackson standard
relies "upon the record evidence adduced at the trial") (quoting Jackson, 443 U.S. at
324). Review of the sufficiency of the evidence, however, does not include review
of the weight of the evidence or the credibility of the witnesses, because those
determinations are the exclusive province of the jury. United States v. Young, 107
F. App'x 442, 443 (5th Cir. 2004) (citing United States v. Garcia, 995 F.2d 556, 561
(5th Cir. 1993)); see Jackson, 443 U.S. at 319 (noting that it is the jury's
responsibility "to resolve conflicts in the testimony, to weigh the evidence, and to
draw reasonable inferences from basic facts to ultimate facts"). All credibility
16

choices and conflicting inferences must be resolved in favor of the verdict. Ramirez
v. Dretke, 398 F.3d 691, 695 (5th Cir. 2005).
A federal habeas court is not authorized to substitute its interpretation of the
evidence or its view of the credibility of witnesses in place of the fact-finder. Weeks
v. Scott, 55 F.3d 1059, 1062 (5th Cir. 1995); Alexander v. McCotter, 775 F.2d 595,
598 (5th Cir. 1985). In addition, "[t]he Jackson inquiry 'does not focus on whether
the trier of fact made the correct guilt or innocence determination, but rather whether
it made a rational decision to convict or acquit.'" Santellan v. Cockrell, 271 F.3d 190,
193 (5th Cir. 2001) (quoting Herrera v. Collins, 506 U.S. 390 (1993)).
A claim of insufficient evidence presents a mixed question of law and fact.
Perez, 529 F.3d at 594. Therefore, this Court must examine whether the state courts'
denial of relief was contrary to, or an unreasonable application of, United States
Supreme Court precedent.
In arguing that the record is void of any evidence establishing that he was not
acting in self-defense, Petitioner contends that all of the witnesses presented by the
State failed to state that he shot down onto the deceased. Rec. Doc. 1-2, p. 14. The
Third Circuit, discussing the sufficiency of the evidence claim in its unpublished
opinion, stated:
Our review of the evidence (which included a video of the fight
between Benoit and Defendant) shows that Defendant was working
as a security guard at Club Jamaica. While the crowd was watching
17

the parades, two men began fighting. When Benoit and Defendant
attempted to break up the fight, Benoit bumped into Defendant, and
Defendant then pushed Benoit. Benoit punched Defendant, knocking
him to the ground. After he fell to the ground, Defendant got up,
turned his hat backwards, and told Benoit to "come on." Defendant
charged Benoit only to be punched and knocked down again. After
the second confrontation, Benoit did not see Defendant again for a
short time. Another security guard approached Benoit and attempted
to calm him down.
During that time, Defendant left the scene and obtained a 9mm
handgun. As he returned to confront Benoit, he carried the gun
•'gangster style," and uttered uh-huh." He approached Benoit put the
gun to Benoit's chest, and shot him. Benoit, who had put his hands
up with his palms outward, staggered, and fell backwards. After the
gunshot, Defendant taunted Benoit saying, "now what are you going
to do M • F • ?” Defendant was apprehended immediately after the
shooting by Damon Prudhomme, who was working a detail for the
Lafayette Parish Sheriffs Office. Officer Michael Rose, who arrived
shortly thereafter, testified that Defendant told him he had been cut
with a knife. However, Rose stated that he did not recall a knife being
found in the vicinity of the altercation.

The evidence showed that Defendant, was the first one to push Benoit
after Benoit bumped into him during the struggle to break up the
fight. The evidence also showed that Defendant left the scene for a
short period, one to five minutes, after he was knocked down by
Benoit the second time and returned with a gun. Thus, he could have
easily escaped any aggression by Benoit. Nevertheless, Defendant
left the scene, returned with a gun, shot Benoit in the chest, and
yelled an obscenity at him. Because it is the role of the jury to weigh
the credibility of the witnesses, the appellate court should not
second-guess these determinations beyond a sufficiency of the
evidence review. State v. Buchanan, 94-488 (La. App-. 3 Cir.
11/2/94); 649 So.2d 586, writ denied, 94-2956 (La. 3/24/95); 651
So.2d 287. Thus, viewing the evidence in a light most favorable to
18

.the_prosecuti.oiijtappears_the_jury-couldjiay^reasonahly_foundlhat_
Defendant was the initial aggressor and rejected his assertion of selfdefense. We shall not disturb this finding.
Doc. 11-3, pp. 46-48.
Addressing Flugence’s contention that he was acting in defense of other
people, the Third Circuit found that “no evidence in the record that Benoit was going
to attack anyone there other than Defendant. Additionally, there was no evidence
that Benoit was armed. It was reasonable for the jury to believe that Benoit was not
a danger to anyone but the Defendant. Because we cannot say that this finding is
clearly erroneous, we yield to the jury’s discretion and affirm its verdict.” Id. at pp.
48-49.
Finally, Flugence also argues that if the killing was revenge for getting beat
up by the victim, then this was, at best, a killing committed in the heat of passion,
therein mandating a reduced verdict of manslaughter. Doc. 1-2, p. 14. The Third
Circuit also addressed this claim, holding that the “jurors reasonably could have
concluded that there was not sufficient provocation, and that enough time had passed
for Defendant’s blood to cool.

Thus, viewing the evidence in the light most

favorable to the prosecution, the jury reasonably rejected a manslaughter verdict and
returned a verdict of second degree murder.” Id. at p. 51.
Accordingly, this Court agrees that a rational trier of fact, after viewing this
evidence in the light most favorable to the prosecution, could easily have found that
19

petitioner had specific intent to commit second-degree murder. The jury was well
within its authority to make credibility determinations as to the testimony of the
witnesses.

It is not for this Court, on federal habeas review, to reevaluate the

credibility of witness statements or the weight of the evidence or to substitute its
own judgment for the trier of fact, whose fact-finding must be given deference.
Considering the evidence in the light most favorable to the prosecution, it was
rational and reasonable for the jury to have found that the essential elements of
second degree murder were proven beyond a reasonable doubt. As the Court finds
that the state courts' denial of relief was not contrary to, or an unreasonable
application of, United States Supreme Court precedent, Petitioner is not entitled to
relief on this claim.
11.

Claim 2- Trial court committed error in denying the defense its
constitutional right to present evidence and testimony.
Petitioner contends that the trial court committed manifest error in refusing to

allow the defense to present the testimony of a martial arts expert. The Government,
relying on the United States Supreme Court’s holding in Kumho Tire Co., Ltd. V.
Carmichael, 526 U.S. 137 (1999), argues that because the trial court is the
“gatekeeper” in regard to all expert testimony, it did not abuse its discretion in
disallowing this testimony.
Daubert v. Merrell Dow Pharms., Inc., 509 U.S. 579 (1993) provides the
analytical framework for determining whether expert testimony is admissible.
20

Pipitone v. Biomatrix, Inc., 288 F.3d 239, 243 (5th Cir. 2002). Under Daubert, trial
courts act as gatekeepers overseeing the admission of scientific and non-scientific
expert testimony. Kumho Tire Co. v. Carmichael, 526 U.S. 137, 147 (1999). Trial
courts must make "a preliminary assessment of whether the reasoning or
methodology underlying the testimony is scientifically valid and of whether that
reasoning or methodology properly can be applied to the facts in issue." Daubert,
509 U.S. at 592-93. In other words, the trial judge must determine whether the expert
testimony is both reliable and relevant. Id. at 589.
This issue was addressed in the trial court:
Court:

Now you have an objection, Mr. Stutes?

State:

Yes, Your Honor. I anticipate-—again, this is one
of these in-advance objections. I anticipate that the
testimony from this witness will involve an
opinion that the victim may have had martial arts
experience. I object to that and this is the basis. If
that is the reason for the testimony or the purpose
of the testimony, I would object to it, based on the
same Article 404 that I objected to earlier. It would
portray the character of the victim, and that is
inadmissible evidence unless a foundation is laid
that, first, an overt act is proven, and that’s by way
of the evidence that’s been presented so far. And
secondly and more importantly, that the defendant
knew that this victim had, quote, ‘martial arts
experience.’

Defense:

Your Honor, my response to that is that this is an
element that applies and goes exclusively to the
21

issue of a responsive verdict in this matter, and that
is the degree of force that we deal with when we
talk about provocation. And that is one of the
foundation arguments that the redactors talked
about when they talked about manslaughter. They
talked about adultery being such a thing that
caused heat of blood, and they also talked about
the severity of a blow to the head. And obviously
a person who’s had some martial arts experience
and training is going to render a more severe blow
to the head than someone who does not, and
especially when they’re using the long bones in the
arm in the manner that they’re used. And that’s the
basis of our opinion, but certainly it has nothing to
do with the character of the accused—
State:

Your Honor, my response is that is proven by the
fact, it can be argued by the video, and it is now
proven by Dr. Harper’s testimony. This is
repetitive. In addition to it being objectionable
under 404A, it is further repetitive and
unnecessary.

Court:

I agree, and I’m going to sustain the objection, and
I will note your objection to the ruling of the Court.

Trial Transcript, Doc. 11-9, pp. 67-68.
Based on the record, there was a factual basis to support the trial court’s
decision not to allow the martial arts expert testimony. The Louisiana Third Circuit
reviewed this decision and found that there was no abuse of discretion. Petitioner
has failed to demonstrate a violation of his constitutional rights or denial of due

22

process cognizable before this federal habeas court. He therefore is not entitled to
relief on this claim.
iii.

Claim 3 - Trial court committed error in refusing to allow the jury, during
deliberations, and upon its request, to review slow motion videotape of the
incident giving rise to the proceedings.
Finally, Petitioner argues that the trial court committed manifest error in

denying the defense its constitutional right to present evidence and testimony in its
defense, specifically, a slow motion videotape of the incident giving rise to the
proceedings. The Government argues, and this Court agrees, that because he failed
to make a contemporaneous objection when the trial court ruled that the jury could
not view the videotape, he is procedurally barred from raising this claim herein. See
Wainwright v. Sykes, 433 U.S. 72, 90 (1977); Curington v. Cain, 2015 U.S. Dist.
LEXIS 84063 (E.D. La. Feb. 27, 2015).
V.

CONCLUSION AND RECOMMENDATION
For the foregoing reasons,
IT IS RECOMMENDED THAT the instant application be DENIED and

DISMISSED WITH PREJUDICE.
Under the provisions of 28 U.S.C. Section 636(b)(1)(C) and Rule 72(b),
parties aggrieved by this recommendation have fourteen (14) days from service of
this report and recommendation to file specific, written objections with the Clerk of
Court. A party may respond to another party’s objections within fourteen (14) days
23

after being served with a copy of any objections or response to the district judge at
the time of filing.
Failure to file written objections to the proposed factual findings and/or
the proposed legal conclusions reflected in this Report and Recommendation
within fourteen (14) days following the date of its service, or within the time
frame authorized by Fed.R.Civ.P. 6(b), shall bar an aggrieved party from
attacking either the factual findings or the legal conclusions accepted by the
District Court, except upon grounds of plain error. See, Douglass v. United
Services Automobile Association, 79 F.3d 1415 (5th Cir. 1996).
Pursuant to Rule 11(a) of the Rules Governing Section 2254 Cases in the United
States District Courts, this Court must issue or deny a certificate of appealability when it
enters a final order adverse to the applicant. Unless a Circuit Justice or District Judge
issues a certificate of appealability, an appeal may not be taken to the court of appeals.
Within fourteen (14) days from service of this Report and Recommendation, the parties
may file a memorandum setting forth arguments on whether a certificate of appealability
should issue. See 28 U.S.C. § 2253(c)(2). A courtesy copy of the memorandum shall be
provided to the District Judge at the time of filing.
THUS DONE in Chambers on this 8th day of April, 2020.

CAROL B. WHITEHURST
UNITED STATES MAGISTRATE JUDGE

24

